          U.S. Environmental Protection Agency
                 U.S. Department of the Interior
                    Offices of Inspector General




Tribal Successes:




Protecting the Environment
  and Natural Resources
                                       May 2007
Credits




Special thanks to the following individuals for photos used in this report:
       John S. Banks, Director, Dept. of Natural Resources, Penobscot Indian Nation
       Nolan Colegrove, Forest Manager, Hoopa Valley Tribe
       Ken Jock, Director, Environmental Division, Saint Regis Mohawk Tribe
       Nancy John, Director, Environmental Programs, Cherokee Nation
       Tim Keesey, Environmental Manager, Susanville Indian Rancheria
       Charles Lujan, Director, Office of Environmental Affairs, Ohkay Owingeh
       Dave Morgan, La Calandria Associates, Inc.
       Staff, Offices of Inspector General for DOI and EPA
                                                                                 Preface

It is with great pleasure that we present Tribal Successes: Protecting the Environment and Natural
Resources. Numerous Tribes use innovative practices to protect natural resources and the
environment. This report showcases only a small sample of Tribal communities that demonstrate
success in achieving natural resource and environmental goals. The overall intent of this report is
to highlight examples of successful Tribal practices that will inspire and be useful to others in
successfully implementing their own natural resource and environmental programs.

We extend our sincere thanks to all who provided feedback and suggestions. Your assistance
greatly contributed to the design and completion of this report. We especially thank members of
the Tribes highlighted in this report for their participation and interest. Their commitment to
sharing successful Tribal programs and practices made this report possible.

This unique report is the culmination of a collaborative effort by the Offices of Inspector General
for the U.S. Environmental Protection Agency and the U.S. Department of the Interior. It was
prepared to promote Tribal programmatic capability and capacity. This report provides a forum to
share the diversity of Tribal practices and to create models for success. We encourage government
agencies and other stakeholders to use the report to enhance relationships and partnerships with
Tribes.




Earl E. Devaney                                     Bill A. Roderick
Inspector General                                   Acting Inspector General
U.S. Department of the Interior                     U.S. Environmental Protection Agency




                                                                                                      i
Executive Summary
Tribal Successes: Protecting the Environment and
                  Natural Resources
PURPOSE OF REPORT
This report was prepared to highlight the diversity of innovative Tribal practices that will serve as models
of success to other Tribes in implementing natural resource and environmental programs. We also
encourage U.S. Environmental Protection Agency and U.S. Department of the Interior officials and other
stakeholders involved in promoting Tribal programmatic capability and capacity to use the report to
enhance partnerships with Tribes.

INNOVATIVE PRACTICES
Successful implementation of environmental and natural resource projects directly results from
innovative practices that overcome barriers. Some common barriers that affect Tribes include:

     ♦   Resource Limitations.
     ♦   Administrative and Managerial Requirements.
     ♦   Legal and Regulatory Issues.
     ♦   Communication and Relationships.

Some of the barriers affecting Tribal implementation of natural resource and environmental programs
result from difficulties in working with federal entities. These difficulties often stem from differences in
resource needs and availability, rules, operating procedures, goals, priorities, and culture.

Tribes have overcome barriers, such as those outlined above, through innovative practices, which are key
variables for Tribes in maximizing the effectiveness of their programs. The innovative practices
presented in this report are based on observations and examples provided by the 14 Tribes represented.
Some of these practices include:

     ♦ Collaboration and Partnerships. Many of the successful Tribal projects resulted from efforts to
       foster good communication and positive relationships.
     ♦ Education and Outreach. Tribes value community input and understand that the success of many
       projects depends on community support. Natural resource and environmental projects are more
       effective if the community participates.
     ♦ Expanding Resources. Based on size, capacity, and structure, each of the Tribes represented has its
       own processes for securing resources to ensure sustainability in natural resource and environmental
       programs. In many cases, Tribes use available resources to market unique products. Some Tribes
       use an overall interest in Tribal culture and local attractions to promote tourism.




ii
                                                                                                Table of Contents

Preface.................................................................................................................................................... i

Executive Summary .............................................................................................................................. ii

Introduction........................................................................................................................................... 1

Map of Tribes Visited ........................................................................................................................... 6

THE 14 PARTICIPATING TRIBES
     Cherokee Nation ............................................................................................................................. 8
     Delaware Nation ........................................................................................................................... 10
     Eastern Band of Cherokee ............................................................................................................ 12
     Hoopa Valley Tribe....................................................................................................................... 14
     Metlakatla Indian Community ...................................................................................................... 16
     Nez Perce Tribe............................................................................................................................. 18
     Ohkay Owingeh ............................................................................................................................ 20
     Penobscot Indian Nation ............................................................................................................... 22
     Native Village of Port Lions ......................................................................................................... 24
     Saint Regis Mohawk Tribe ........................................................................................................... 26
     Sokaogon Chippewa Community ................................................................................................. 28
     Susanville Indian Rancheria ......................................................................................................... 30
     Warm Springs Reservation of Oregon (Confederated Tribes of the) ........................................... 32
     Wiyot Tribe................................................................................................................................... 34


APPENDICES

     1. Scope and Methodology ........................................................................................................... 37




                                                                                                                                                                iii
                                                                          Introduction
PURPOSE                                              resources, and the capacity to implement
                                                     projects.
The purpose of this collaborative effort is to
highlight Tribes’ successful management of           Natural resources play a vital role in Tribal
environmental and natural resource programs.         economies, which rely on land use, such as
The effort was jointly conducted by the Offices      forestry and agriculture. Tribal communities
of Inspector General for the U.S. Environmental      also rely on the land for subsistence activities,
Protection Agency (EPA) and the U.S.                 such as hunting and fishing.
Department of the Interior (DOI).
                                                     Land has always had great spiritual and cultural
                                                     significance to the Tribes. To preserve the land,
                                                     Tribes are committed to implementing
                                                     environmental and natural resource programs.
                                                     These programs include developing Tribal
                                                     environmental regulations; managing solid and
                                                     hazardous waste; and addressing issues of safe
                                                     drinking water, sanitation, subsistence hunting
                                                     and fishing, and cultural heritage preservation.

                                                     EPA supports Tribal environmental capacity
                                                     building through its General Assistance
                                                     Program, which provides opportunities for
                                                     Tribes to develop core environmental programs.
                                                     EPA’s fiscal year
                           Annette Islands Reserve   2006 goal was to
                                                     provide funding
BACKGROUND                                           and technical
                                                     assistance for
There are more than 560 federally recognized         about 90 percent
Tribes in the United States. Currently, these        of federally
Tribes hold more than 50 million acres of land,      recognized Tribal
or approximately 2 percent of the United States.     governments and
Some Tribes hold as little as a few acres, and       intertribal
many Tribes hold no land at all. For example, in     consortia. DOI
1971, land title for Alaska Tribes was conveyed      provides funding
to Alaska Native Corporations, with the              to promote self-
exception of the Annette Islands Reserve in          governance and
southeast Alaska.                                    economic
                                                     stability and                Horses on Tribal Lands
Each Tribe is an individual, sovereign               works through its
government and is unique in structure and            eight bureaus and offices to facilitate the growth
culture. Tribes operate their programs in a          and success of Tribal projects and programs.
variety of ways. Common differences among
Tribal operating methods include varying goals
and objectives, administrative systems, funding

                                                                                                         1
Successful implementation of environmental and       barrier. The represented Tribes explained that
natural resource programs and projects is the        turnover of federal project officers is also a
direct outcome of innovative practices employed      major issue. Replacement of project officers
by the Tribes to overcome barriers. Many of the      results in serious communication problems, such
barriers affecting Tribal implementation of          as the loss of project continuity and established
natural resource and environmental programs          relationships.
result from difficulties in working with federal
entities, which may have differing rules,            Administrative and Managerial
operating procedures, priorities, and resource       Requirements. Tribes face the challenge of
limitations.                                         complying with changing federal rules and
                                                     regulations, which vary among federal agencies.
BARRIERS                                             The procedures and processes a Tribe uses to
                                                     meet one agency’s requirements may not be
The Tribes represented in this report provide        applicable when dealing with another agency. In
numerous examples of successful                      some cases, incompatibilities also exist among
implementation of environmental and natural          Tribal and federal administrative systems.
resource projects and programs. Successful
implementation is a continual challenge,             Inefficiencies occur when Tribes are required to
however, and each Tribe faces numerous               follow different procedures from one federal
barriers. Some common barriers that affect           agency to another. These inefficiencies can lead
Tribes include:                                      to additional Tribal resource needs. In some
                                                     cases, differences in procedures are drastic
    ♦ Resource Limitations.                          enough to discourage Tribes from pursuing
    ♦ Administrative and Managerial                  federal assistance.
      Requirements.
    ♦ Legal and Regulatory Issues.                   Legal and Regulatory Issues. Federal
    ♦ Communication and Relationships.               program regulations limit the use of funds to
                                                     particular activities or functions. Such
Resource Limitations. Tribes are continually         limitations may affect the Tribes’ ability to
looking for funds to initiate and successfully       manage their programs, and in some cases,
implement programs. Unfortunately, initiation        Tribes have refused funding because of use
of a program does not necessarily mean that it
will be implemented. For example, Tribes that
have difficulty in generating their own funding
may face problems with continuing program
operations. In addition, several Tribes informed
us that federal assistance for operation and
maintenance of programs is inadequate to meet
program needs. As a result, some Tribes are
forced to discontinue program participation
when funding resources are exhausted.

Lack of funding also limits the Tribes’ ability to
attract and retain expert staff. Tribal staff
turnover, however, is only one component of this
                                                                                Indian Island, Eureka, CA
2
                                                      INNOVATIVE PRACTICES

                                                      Tribes have overcome barriers, such as those
                                                      outlined previously, through innovative
                                                      practices. Innovation is a key variable for Tribes
                                                      to maximize the effectiveness of their programs.
                                                      Some of the practices used by the represented
                                                      Tribes include:

                                                         ♦   Collaboration and Partnerships.
                                                         ♦   Education and Outreach.
                                                         ♦   Expanding Resources.
                 Boats Used for Subsistence Fishing
                                                      Collaboration and Partnerships. Many
limitations. In other cases, authority may            successful Tribal projects result from efforts to
overlap among multiple federal agencies,              foster good communication and positive
causing confusion because of differing                relationships. Represented Tribes expressed a
regulatory language.                                  strong desire to collaborate with a diverse group
                                                      of partners, such as the local community,
Tribal land bases also vary considerably. Some        non-profits, private industry, other Tribes, and
Tribes have rights to an undivided land base          state and federal agencies. These Tribes
while other Tribes have no land base at all. Most     understand that environmental and natural
Tribes reside in areas that are divided into          resource issues are not limited by jurisdictional
sections of Tribal and non-Tribal land. As a          boundaries and that partnerships are based on
result, Tribes cannot enforce their regulations on    common objectives, creating an increase in
non-Tribal land within Tribal boundaries.             resources, knowledge, and experience. The end
                                                      result is broadened program success.
Communication and Relationships. A lack of
understanding about Tribal cultures among
non-Tribal entities is another barrier. Non-Tribal
officials do not always consider unique Tribal
cultures when working with Tribes. Some
Tribes believe the federal officials they work
with do not adequately understand Tribal
sovereignty or the federal trust responsibility.
Furthermore, federal agencies do not always
coordinate with each other when they share
program oversight, resulting in inconsistent
information being provided to Tribes.




                                                                                           Wolf River, WI



                                                                                                          3
The involvement of non-Tribal entities can          carrying out innovative practices, Tribes
enhance the success of natural resource or          demonstrate the possibility of accomplishing
environmental projects. Good communication          planned natural resource and environmental
and credibility established through proven Tribal   goals. These positive results motivate other
success can influence non-Tribal entities.          Tribes and communities to adapt proven
                                                    innovative practices to fit their own natural
Education and Outreach. Tribes value Tribal         resource and environmental needs, thereby
community input and understand that the success     demonstrating that successes are transferable
of many projects depends on community               beyond the boundaries of a single Tribe.
support. Natural resource and environmental
projects are more effective if the community        Expanding Resources. Based on the size,
participates. One Tribe informed us that Tribal     capacity, and structure of the Tribe, each of the
community input is often the most valuable          Tribes represented has its own processes for
measure of project success.                         securing resources to sustain natural resource
                                                    and environmental programs. In many cases,
The Tribes represented use numerous approaches      Tribes use available resources to market unique
to educate surrounding communities about            products. Some Tribes build on an overall
environmental and natural resource issues.          interest in Tribal culture to attract tourism and
Outreach activities range from formal               market their accomplishments.
community meetings to classroom visits and
fieldtrips. Some Tribes also use media, such as     To overcome funding limitations, several Tribes
pamphlets, cartoons, and computer learning aids,    diversify revenue sources for their programs.
to enhance outreach.                                For example, some Tribes obtain and combine
                                                    funding from multiple agencies to implement a
In some cases, education and outreach extend        single natural resource or environmental
beyond surrounding communities. Tribal project      program. Other Tribes establish relationships
and program successes influence others to           and partnerships to create or obtain support from
institute similar approaches. By creating and       non-profit organizations. Such relationships
                                                    expand outreach and support and are an effective
                                                    approach to raising funds for programs.

                                                    Tribes also expand available resources by
                                                    increasing efficiency. One way to increase
                                                    efficiency is through diversifying employee
                                                    skills. Expanded skills allow individual
                                                    employees to accomplish tasks that would
                                                    otherwise require additional personnel.

                                                    The Tribes noted in the illustration on page 5 and
                                                    on the map on pages 6-7 demonstrate the
                                                    successes achieved through the use of
                                                    collaboration and partnerships, education and
                                                    outreach, and expanding resources to resolve
                                                    environmental and natural resource challenges.

                   Innovative Recycling Container
4
         The 14
      Participating
         Tribes




Expanding            Education &
Resources             Outreach



        Collaboration &
         Partnerships



                                   5
                                     Nez Perce Tribe

            Confederated Tribes of
            the Warm Springs
            Reservation


       Hoopa Valley Tribe
    Wiyot
    Tribe       Susanville
                Rancheria




                                                                  Ohkay
                                                                  Owingeh   Delaware
                                                                            Nation




                    Native Village
                    of Port Lions             Metlakatla Indian
                                              Community

6
                                              Tribes Visited




                                                  Penobscot
                                                  Indian
                                                  Nation

                                      St. Regis
           Sokaogon                   Mohawk
           Chippewa                   Tribe
           Community




                       Eastern Band
Cherokee               of Cherokee
Nation




                                                              7
           Cherokee
            Nation                                  Methamphetamine Lab Assessments
                                                    The Cherokee Nation developed a
                                                    methamphetamine (meth) lab assessment
With the discovery of gold in Georgia in the        initiative because of concerns about the
1830s, settlers began to covet the Cherokee         nationwide meth use epidemic. The Nation
homelands. A period of Indian Removals made         gained the knowledge and expertise necessary to
way for more settlement. In 1838, thousands of      control the environmental and health risks
Cherokee men, women, and children were              associated with meth labs and assess lab sites to
rounded up and marched 1,000 miles to Indian        ensure harmful chemicals are not still present.
Territory, known today as the State of Okla-
homa. That journey is remembered as the             The level of contamination found at a meth lab
“Trail of Tears.” A spirit of survival and perse-   site depends on a number of factors, including
verance carried the Cherokee to Indian Terri-       the method used to produce meth, cooking
tory in 1838, and leads the Cherokee today.         duration, location, and ventilation. Of particular
                                                    concern is the threat of residual contamination,
Consisting of 262,316 citizens, the Cherokee        which can result from spills; leakage; absorption
Nation is the one of the largest Tribes in the      by porous materials; and hazardous leftover
United States. Of these citizens, 133,247 live      materials, such as phosphene gas “death bags,”
within the Nation’s jurisdiction, which             metals, and salts. Often, health problems
encompasses eight counties and portions of six      (headaches, dizziness, and skin disorders) can
other counties in northeastern Oklahoma – an        occur when sites are reoccupied. Children are at
area of about 700 square miles.                     a higher risk because their immune systems are

The Cherokee Nation administers environmental
programs through the executive branch of its
government. Two primary administrators are
the Environmental Protection Commission and
the Department of Natural Resources.

The Commission oversees environmental
functions related to natural resource projects,
such as reviewing proposed legislation,
approving or disapproving legislation,
promulgating regulations, exercising penalty
and enforcement authority, and overseeing
compliance with the National Environmental                                         Meth Lab Assessment
Policy Act. The Department of Natural
Resources oversees programs such as forestry,       not as highly developed as those of adults.
land, and invasive species management, and is       Children also crawl and play on the floor, where
currently developing an Integrated Resources        contaminants are likely to exist.
Management Plan. The purpose of the Plan is
to facilitate planning and execution that merge     In addition to the assessments, the initiative has
environmental and natural resource data,            increased awareness throughout the Cherokee
processes, and actions.                             Nation and surrounding communities about the
                                                    health and environmental risks associated with

8
           Meth Lab Assessments & Air Monitoring
meth production. The Nation conducts training              data collected by the Nation is broadly available
about the hazards of meth lab assessments and              to outside entities. Data from each station is
plans to expand the training to Tribal                     automatically downloaded to a public site (the
organizations nationwide.                                  EPA AIRNow website) every hour, thereby
                                                                                    benefiting not only the
                                                                                    Nation, but also local
                                                                                    communities and the
                                                                                    state.

                                                                                      The Cherokee Nation
                                                                                      also participates in
                                                                                      several national air
                                                                                      monitoring programs,
                                                                                      including Interagency
                                                                                      Monitoring of Protected
                                                                                      Visual Environments
                                                                                      Regional Haze, CastNet
                                                                                      Rural Ozone
                                                                                      Monitoring, Mercury
                                                                                      Deposition Network,
                                                                                      National Trends
                                                                                      Network, National Core
                                                                                      Network Monitoring
                                                                                      Programs, and
                                                                                      Community Air Toxics.


                                                   Community Air Monitoring Station
Air Monitoring Activities
According to Cherokee Nation officials, the
Nation’s air monitoring network—six
                                                              “Breaking the cycle of drug addiction
continuous monitoring shelters scattered
                                                             requires strong support for prevention,
throughout the Nation’s land base—is the largest
                                                                  enforcement, treatment, and
Tribal air monitoring network in the United
                                                                      environmental health.
States. In fact, the Nation’s network is larger
                                                                  We hope to contribute to this
than networks in several states. To ensure
                                                                through our anti-meth coalition.”
consistency in operations and maintenance, the
Nation generally uses standard equipment at                                 — Chad Smith
                                                                                Cherokee Nation Principal Chief
each site. Each air monitoring station routinely
collects data on “criteria pollutants” (carbon
monoxide, sulfur oxide, nitrogen oxide, ozone,
and particulate matter).
                                                           Contact: Nancy John, Director,
The Nation’s air monitoring network is used for            Cherokee Nation Environmental
numerous special studies. The air monitoring               Programs, 918-453-5000 or
                                                           njohn@cherokee.org
                                                                                                                  9
           Delaware
            Nation                                  Air Monitoring Activities
                                                    Air quality issues are important to the Delaware
                                                    Nation because of potential pollutants from
The Delaware, once a confederacy, occupied the                                        nearby power
entire basin of the Delaware River in eastern                                         plants,
Pennsylvania and southwest New York, together                                         interstate
with most of New Jersey and Delaware. The                                             highways, and
Delaware called themselves Lenape, meaning                                            diesel-
“the people,” while settlers knew them as the                                         powered
Delaware from the name of their principal river.                                      drilling by oil
Gradually, the Delaware were relocated West                                           companies.
and split into two groups just before the Civil                                       Concerned
War. One group, the Delaware Tribe, moved                                             about the effect
through Kansas and then into Indian Territory                                         of poor air
in Oklahoma, where the Tribe still lives.                                             quality on
                                                                                      human health
The second group, which would eventually                                              and the
become the Delaware Nation, also moved to                                             environment
Oklahoma and reorganized under the Oklahoma                                           and the lack of
                                                    Air Monitoring Station
Indian Welfare Act of 1936. In April 1973, this                                       overall air
group passed a Tribal Constitution changing its     monitoring data for southwest Oklahoma, the
name to the Delaware Nation of Western              Nation implemented a process to evaluate air
Oklahoma. In 1984, the group moved into new         quality.
offices located about 2 miles north of Anadarko,
Oklahoma. In November 1999, the group               The Nation obtained assistance to establish an air
changed its name to the Delaware Nation, with a     monitoring station and began monitoring
membership of 1,298.                                activities in November 2002. Passive ozone
                                                    testing in 2003 and
Environmental problems faced by the Delaware        2004 revealed high
Nation include air quality issues (high ozone       ozone levels. To
levels and asthma), hazardous waste, pesticides,    obtain a more
and open dump sites. To address these               complete picture
problems, the Delaware Nation initiated an          of air quality, the
environmental program in October 1997. The          Nation is working
Nation’s environmental office is staffed by eight   to expand monitor-
employees.                                          ing activities to
                                                    include assess-
The Delaware Nation is working towards an           ments of nitrogen
overall goal to establish internal capacity and     oxide and
capability to conserve, preserve, and protect the   particulate matter.
environment. To achieve this goal, the Nation       Since air pollution        Air Monitoring Equipment
provides training for the environmental staff and   is not confined to
uses up-to-date technology and processes to         its boundaries, the Nation sees its air monitoring
identify and develop strategies to manage           activities as important practices for the entire
problem areas.                                      surrounding community.

10
                                              Air Monitoring & Recycling
Recycling
In spite of several challenges, the Delaware
Nation successfully implemented a rural
recycling program in cooperation with nearby
Tribes and the City of Anadarko. A collection
facility is located on the reservation, but services
are offered throughout the local community.
The Nation provides recycling services at
community events, and City officials recently
asked the Nation to install a large recycling
station at City Hall. Although the program is
currently limited to recycling aluminum and
paper products, participation in the program has
grown to the point that the Nation plans to                           Bales of Shredded Paper for Recycling
expand into recycling plastics and appliances.
                                                       user $20 per month to cover waste pick-up and
One of the biggest challenges faced by the             recycling services.
Nation was a lack of interest by community
residents, who were accustomed to disposing of         The volume of material recycled or eliminated
waste through other means, such as burning.            from the waste stream through the Delaware
The Nation is successfully meeting this                Nation’s program averages 200 tons per year. In
challenge through an outreach program to               addition, the success of the recycling program
educate residents about the benefits of proper         has resulted in the creation of four jobs. The
disposal. Actions taken by the Nation include          Nation targets motivated employees to work in
visiting schools and working with the                  the program and provides adequate training.
community health board to ensure residents are         Sustainability is an important issue to the
better informed. The Nation’s outreach has             Nation and has been a primary factor in the
increased participation in the recycling program,      growth and success of the recycling program.
and the program continues to grow. To sustain
and expand the program, the Nation charges each
                                                            “Environmental Programs will
                                                         protect, enhance, promote, preserve
                                                            and regulate our native lands,
                                                                    water and air.”
                                                                  —    Mission Statement,
                                                                       Delaware Nation
                                                                       Environmental Programs




                                                       Contact: Nikki Owings-Crumm,
                                                       Acting Director,
                                                       Delaware Nation Environmental Program,
                                                       405-247-2448 ext 137 or
Community Recycling Bin                                nyocrumm@delawarenation.com
                                                                                                        11
     Eastern Band of
        Cherokee                                    Conversion of Open Dump and Solid
                                                    Waste Recycling
                                                    After careful planning, the Eastern Band of
In 1838, thousands of Cherokee were forcibly        Cherokee covered a large open dump for use as a
removed from their land in North Carolina and       staging area for water, sewer, sanitation,
taken to Oklahoma on the “Trail of Tears.” The      construction, and other Tribal projects.
Cherokee in western North Carolina today
are descendents of those who were able to hold
on to land they owned; those who hid in the
hills, defying removal; and those who returned,
many on foot. Today, the Band is composed of
about 12,000 members.

The Band’s land encompasses over 56,000
contiguous acres adjacent to the Great Smoky
Mountains National Park in North Carolina.                             Crusher at Converted Open Dump
Natural resources and the environment have
served as touchstones for Tribal traditions and     The Band uses the site to recycle soil, concrete,
as sources of income for decades. Tourism is        and asphalt from outside contractors. Soil is
important to the Band’s economy, and                sifted and refined through a shaker owned by the
cold-water trout streams are primary local          Band, and waste rock is crushed to gravel with a
attractions.                                        crusher donated by the U.S. Army in 2003.
                                                    Recycled soil and rock are used on Tribal and
The Eastern Band of Cherokee strives to             U.S. Forest Service roads, and private citizens
conserve local natural resources for continued      purchase material from the Band to use on
use and enjoyment by successive generations.        driveways and around barns. The Band began
The Band’s Office of Environment and Natural        turning a profit on the crusher in 2006 and hopes
Resources started operation in October 1992         to earn enough to buy a bigger crusher. The site
and increased its activity in 2000, when the        also serves as a training ground for the Band’s
Band used grant funds to hire people with the       young people, who can learn to operate heavy
expertise to successfully apply for additional      machinery and be educated in other aspects of
grants. Seventy percent of funding for the Office   construction. After training, these young people
is obtained through grants, and 30 percent is       possess the technical skills and experience to be
provided by the Band.                               marketable in a variety of trades.

The Band is working to address the challenge of
hiring and retaining qualified people, a
challenge that is made more difficult by the fact
that employees wear “multiple hats”. Loss of an
employee is therefore a severe setback because
more than one function has to be replaced. The
Band is trying to maintain its knowledge base by
certifying people and keeping them current
through training programs like those offered by
the United South and Eastern Tribes.
                                                                                      Recycling Center
12
      Managing Solid Waste & Restoring Habitat
The former dump houses the Band’s recycling         featured in the North American Green’s Erosion
center. Begun in 1989, the Band’s Recycling         Discussion newsletter as one of the most diverse
Department promotes reducing, recycling, and        projects in the nation in terms of planning.
reusing solid waste and diverting waste like
aluminum cans and paper products from               By using its own resources, the Band completed
landfills. A goal is to reduce solid waste          the project at one-fourth to one-third of the cost
disposal costs on Tribal lands to the greatest      of using outside contractors. The project is
extent possible. About 13,000 local residents       closely connected to the Band’s water quality
and 30 businesses currently participate in the      monitoring efforts. The Band is one of the few
program. In 2006, the recycling program             Tribes east
diverted about 640,000 pounds of solid waste        of the
(aluminum, glass, plastic, paper and cardboard),    Mississippi
200 used car batteries, and 1,700 gallons of used   that collects
motor oil from landfills.                           as well as
                                                    evaluates
The Band’s Sanitation Department runs a             water
composting program, with educational seminars       quality data.
attended by people from as far away as Ohio,
and sells its own compost locally. The Band         Stream
                                created a nation-   restoration                           Fish Hatchery
                                ally used manual    and good
                                Composting          water quality support the Band’s fish hatchery
                                Made Simple,        program, which stocks recreational and
                                distributed by      commercial ponds with about 360,000 fish each
                                EPA. The            year. Locally, both rivers and ponds are used for
                                Band’s Sanita-      recreational fishing. The Band charges $150 for
                                tion Department     a seasonal fishing permit. The Band believes that
                                was a 1992          stocking recreational and commercial ponds and
                                National Finalist   streams with farmed trout takes pressure off wild
Erosion Control                 in Harvard          populations and is collaborating with the U.S.
University’s Award for Stewardship and Sanita-      Fish and Wildlife Service to stock non-game fish
tion and won an EPA Award for Outstanding           to maintain water wildlife diversity.
Stewardship and Environmentalism in 2000.
                                                         “As we continue our journey, we
Stream Restoration and Water Quality                      forge the paths for those with a
The Band used $60,000 of its own money,                    clearer vision for our future.”
low-cost and volunteer labor, logs from trees
removed from a Tribal school construction site,                  —Eastern Band of the Cherokee
                                                                    Nation 2004 Annual Report
and donated rock to control stream bank erosion
in a high-traffic, urban recreation area. The
Band also used rock to build ledges, shoals, and
water features within the stream to enhance trout   Contact: Edward Huskey,
habitat. The project was large and high profile.    Deputy Operating Officer,
It was certified by the Bureau of Indian Affairs    Eastern Band of Cherokee,
as a low impact development and will be             828-497-1805 or
                                                    ehuskey@nc-cherokee.com
                                                                                                     13
      Hoopa Valley
         Tribe                                        Sustainable Forest Management
                                                      A sustainable forest is critical, as timber is the
                                                      source of about 95 percent of the Tribe’s annual
Members of the Hoopa Valley Tribe are known           discretionary revenue. The Tribe took over
as Hupa. They live in and around the town of          management of its Forestry Program in 1989 and
Hoopa in northern California and total 1,800 of       by 1994 had adopted a Forest Management Plan
the town’s population of 2,500. Of the 92,500         laying out a Tribal vision to balance economic
acres comprising the Tribe’s reservation, 88,000      return with forest resource protection 120 years
are considered to be commercial forest land.          into the future. The Tribe reduced the annual
                                                      allowable cut to about 10 million board feet;
Today, the Hupa are working to restore the            began restoring clear-cut lands through tree
natural resources that were damaged by federal        regeneration; classified significant acreage as
land and water development and management.            no-cut; and controlled erosion, which also helped
From the 1950s to the late 1980s, the Bureau of       reduce stream sediment and protect fish habitat.
Indian Affairs managed the Tribe’s forests,
focusing primarily on maximizing revenue. The
result was the clear cutting of 33,000 acres to
annually produce about 60 million board feet of
timber. The
clear cuts re-
moved plants
and animals
and degraded
water quality
and fish
habitat.
                   Prior Clear-Cut Forest Practices
Water
development by the Bureau of Reclamation also
degraded water quality and fisheries. The Hupa                                   Hoopa Valley Reservation
live within the Klamath River watershed, and the
Trinity River, a Klamath tributary, bisects the
reservation. In 1963, the Trinity River was           An innovative practice solved the problem of
dammed to divert up to 90 percent of its water.       black bears stripping the bark from young
This diversion, combined with competing               Douglas fir trees to feed on the sweet layer of
demands for water by farmers, hydropower              wood underneath, thereby killing the trees. The
users, and fishermen, has severely strained the       Tribe rejected practices used by other timber
entire Klamath River ecosystem.                       companies, ranging from killing to feeding the
                                                      bears, in favor of DNA testing to identify problem
In 2002, low flows in the Trinity resulted in         bears. After a 2-year study, the Tribe can identify
higher water temperatures, overcrowding, and          these bears by the condition of their teeth and
the spread of bacteria, all of which killed an        remove the bears to other locations. The Tribe
estimated 60,000 salmon during a 2-week               also changed its forestry practices to leave a
period. Fish tags revealed that two-thirds of the     greater number of older trees intact, making them
fish were from the Trinity River.                     less attractive to bears.

14
              Sustainable Forestry & Water Protection
In 1999, Tribal forestry practices were certified             invertebrates to
as meeting professional forest sustainability                 evaluate stream
standards developed by the Forest Stewardship                 health over
Council,1 a global network located in more than               time. It also
40 countries.                                                 regularly tests
The Tribe                                                     water quality
viewed                                                        and uses the
certification                                                 results to
                                                                                      Klamath River Fish Kill in 2002
as a way to                                                   strengthen
develop a                                                     water quality standards and better manage water
market                                                        resources. For example, in response to the 2002
premium for                                                   fish kill, the Tribe developed standards, now
Tribal wood                                                   awaiting EPA approval, for the presence of
products and                                                  bacteria in reservation waters to help prevent
provide an                                                    future catastrophic fish kills. The Tribe is also
                                Sustainable Forestry
outside                                                       working with the courts and federal agencies to
assessment of forest management to Tribal                     restore higher flows to the Trinity River.
members. The Council ensures ongoing
compliance through annual audits, which the                   The Bureau of Reclamation acceded to the
Tribe has consistently passed.                                Tribe’s request to release additional water into
                                                              the Trinity River in late August and early
By including its Cultural Committee in forest                 September for the annual Hoopa Boat Dance
management decisions, the Tribe protects                      Ceremonies, which use river water for sweat
cultural resources that were not protected under              houses and cultural bathing. Because of the
previous practices. For example, basket-making                work of the Hoopa Valley and other Tribes,
materials are now protected by a cultural burning             California’s North Coast Water Quality Control
program to regenerate cultural plants, by a                   Plan now includes provisions for the cultural use
prohibition on herbicides on the reservation, and             of water.
by an agreement with the U.S. Forest Service to
ban herbicides on adjoining National Forest land.                   “To us, the river is a way of life.
Every year, the Tribe allocates funding to                               We live, work and play
manually treat competing vegetation throughout                                in that water.
its forest. While costly, this practice protects                             It’s something
resources, human health, and fish habitat.                                 we’ve always had,
                                                                        and something we plan
Water Quality Protection                                             to always have in the future.”
The Hupa were the first California Tribe to                              —Joseph Jarnaghan,
develop water quality standards approved by                                 former Hoopa Valley Council Member
EPA. With continuous data recorders measuring
up to 20 parameters, the Tribe collects baseline
                                                              Contacts: Nolan Colegrove, Forest
data and monitors the presence of macro-                      Manager, 530-625-4284 or
1
                                                              nolanccsr@pcweb.net
 The Council accredits independent third-parties to certify   Ken Norton, Director, Tribal EPA,
that forest managers and product producers meet Council       530-625-5515 or
forest management standards. The Tribe was certified          knorton@hoopa-nsn.gov
through the Rainbow Alliance’s SmartWood program.             Hoopa Valley Tribe
                                                                                                                  15
 Metlakatla Indian
   Community                                         Good planning and decisive action over the past
                                                     few years have helped the Metlakatla Indian
                                                     Community make significant progress in
The Metlakatla Indian Community is located on        cleaning up the Annette Islands and diversifying
the Annette Islands Reserve and encompasses          its economy. The success of the cleanup was
86,313 acres of land and 46,019 acres of water,      such that in 2000 the Community was designated
for a total of 132,332 acres. Located in             as a Brownfields Showcase Community,1 one of
southeast Alaska, it is the only federal Indian      28 Showcase Communities in the United States
reserve in the state. In 1940, the U.S. Army built   and one of only two Tribes to be so designated.
an air base on 12,783 acres located 6 miles
south of the town of Metlakatla. The base            The cleanup used a Community workforce
brought runways, taxi routes, hangars, storage       whenever possible, and several members earned
tanks, facilities, housing, docks, a hospital, and   Hazardous Waste Operations and Emergency
infrastructure improvements to water, sewage,        Response certifications to form a skilled labor
and communications.                                  pool. Economic successes also include the
                                                     Community’s Purple Mountain Pure Water
At the end of World War II, the air base was         Bottling Plant, opened in 2003, and ongoing
vacated, and in 1948, the Federal Aviation           planning for a rock quarry that could produce an
Administration leased the base for use as the        estimated 200 million tons of rock over a
Ketchikan Airport. Control shifted to the U.S.       40-year life, employ 60 Community members,
Coast Guard in 1956, and by 1973 the                 and generate nearly $1 billion in revenues.
airport had been moved to a new facility closer
to Ketchikan. All remaining airport support          A Showcase Community
activity ceased in 1977.                             As a Showcase Community, the Community’s
                                                     goal is to promote self-governance and serve as a
Subsequently, the timber and fishing                 model for other
industries supporting the Community were             Tribal communi-
steadily declining. Increases in farmed salmon       ties experiencing
negatively affected the wild fish industry, and      similar environ-
the fish cannery in Metlakatla closed. The 1999      mental issues.
closure of the Annette Hemlock Mill effectively      Key to the success
stopped the timber harvest. To find jobs for its     of the cleanup
members, the Community decided to diversify its      were Memoran-
economy and improve the quality of life for all      dums of Under-
Community members, while remaining sensitive         standing with
to its cultural and environmental values.            agencies that had
                                                     contributed to the
In 1996, the Community’s Environmental               contamination. A
Coordinator, working with a contractor,              Work Group
                                                     composed of                         Annette Island
identified more than 80 sites associated with
former federal facilities near Metlakatla. Of
these sites, 72 had problems, including leaking      1
                                                      EPA initiated its Brownfields Program in 1995 to empower
drums, asbestos, lead, pesticides, polychlori-       states and other entities to boost local economies by cleaning up
nated biphenyls, chemical and oil spills, and        brownfields, defined as properties whose reuse could be
                                                     compromised by the presence of contaminants. There are an
leaking above and underground storage tanks.         estimated 450,000 brownfields in the United States.
16
            Collaboration & Economic Development
                                    members of        hour and ships about 1,000 cases (480,000
                                    the Commu-        bottles) per month. The goal is to sell bottled
                                    nity and staff    water to the lower 48 states.
                                    from the
                                    Bureau of         Rock, another natural resource, is the basis for
                                    Indian            the Bald Ridge Aggregate Project, a proposed
                                    Affairs,          quarry that would create jobs by providing high-
                                    Federal           quality crushed rock to the Pacific Northwest
Abandoned Structure                 Aviation          through the Metlakatla Aggregate Construction
                                    Administra-       Company. The Metlakatla Community has
tion, U.S. Army Corps of Engineers, U.S. Coast        completed surface sampling and testing;
Guard, National Weather Service, and Chevron          exploratory drilling; and engineering, environ-
Texaco Company has made notable progress.             mental, and marketing studies. It is now seeking
Accomplishments include dismantling and               contracts with
disposing of eight contaminated buildings and         the U.S. Army
pads, removing 700 tons of scrap metal, draining      Corps of
and cleaning 10,000 feet of fuel line, removing       Engineers for
7,000 gallons of mixed fuel and water,                sale of the
demolishing and recycling 45 abandoned towers         rock.
with lead-based paint, removing and recycling
800 abandoned drums, and disposing of                 The Commu-
14 underground and one aboveground fuel stor-         nity has also
age tanks. Fuel-contaminated soil was creatively      submitted
used to repave roads throughout the reservation.      applications      Purple Mountain Pure Bottled Water
                                                      for certifica-
The Community also took the lead on several           tion as a small and disadvantaged business to the
projects administered by the Department of            Department of Transportation and the Small
Defense, such as the Moss Point Garrison, where       Business Administration.
42 collapsed buildings, a fuel tank, a septic tank,
and several hundred cubic yards of contaminated
soil were removed. At the White Alice Station, a                    “Our main goal is
former U.S. Air Force site, 137 abandoned                          making sure that the
transformers, two underground fuel storage                        community and island
tanks, one aboveground storage tank, and several                  will be self-sustaining.
thousand cubic yards of contaminated soil were                  We have an abundance of
removed.                                                          resources and want
                                                                     to keep them.”
A Diversified Economy
The Community’s Purple Mountain Pure Water                             — Metlakatla Member
Bottling Plant takes advantage of the 180 inches
of rain that falls each year on the Annette
Islands. Water is taken from the town water           Contact: Jeff Benson,
system, whose source is a nearby lake, and            Environmental Coordinator,
filtered, de-chlorinated, and ozone purified. The     Metlakatla Indian Community,
plant is capable of processing 600 bottles per        907-886-4200 or
                                                      micenviro@hotmail.com
                                                                                                        17
     Nez Perce Tribe                               Monitoring Air Quality
                                                   Air quality is a concern for everyone who lives
                                                   on the reservation because of three large lumber
The Nez Perce, or Nimiipuu as they refer to        mills; woodstoves; residential, forestry and agri-
themselves, originally occupied about 13           cultural burning; and other sources. Several
millions acres in what is now southeastern         communities are located in the river valley
Washington, northeastern Oregon, and northern      which is prone to air inversions. The Tribe
Idaho. The Treaty of 1855 resulted in the Tribe    administers EPA’s Federal Air Regulations for
relinquishing 5.5 million acres to the U.S. gov-   Reservations (FARR), which regulates air emis-
ernment and an 1863 treaty further reduced the     sions within the boundaries of 39 reservations in
reservation to about 750,000 acres.                Idaho, Oregon, and Washington. The Tribe has
                                                   a full-time outreach person on staff and has held
                                                   meetings with the community, city governments,
                                                   and emergency service agencies.

                                                   In 1998, the Tribe received EPA funding to
                                                   address air quality issues and now operates air
                                                   equipment at three locations to monitor particu-
                                                   lates and toxics, including metals, carbonyls and
                                                   volatile organic compounds. The Tribe coordi-
                                                   nates air quality management with the State of
                                                   Idaho, which uses Tribal air quality data to help
                                                   determine when to issue burn permits off-
                                                   reservation. The State’s Department of Environ-
                                                   mental Quality
                                                   posts State and
                                                   Tribal monitor-
                                                   ing data on its
Passage of the Dawes Act in 1887 opened the        website.
reservation to homesteading, allowing
non-Indians to buy reservation land and create a   Since 2002, the
“checkerboard” pattern of land ownership.          Tribe has coor-
Today, the Nez Perce own only about 12 percent     dinated smoke
of the reservation, resulting in issues over       management
jurisdiction. About 18,000 people live within      operations with
reservation boundaries, including about 1,600 of   other agencies
the Tribe’s 3,900 members.                         through a four-
                                                   party agreement
The Tribe established a Natural Resources          with EPA and
Department to provide for the Tribe’s long-term    Idaho’s                      Air Monitoring Station

cultural, social, political, and economic          Departments of Agriculture and Environmental
stability. The Department has divisions for        Quality. The Tribe’s program includes the
cultural resources, environmental restoration      FARR residential, agricultural and forestry burn-
and waste management, forestry, land services,     permitting process, which emphasizes coopera-
water resources, and wildlife.                     tion and coordination with burners. The Tribe

18
                                Air Monitoring & Wolf Recovery
acts as EPA's representative on the reservation,
but sends investigations to EPA for enforcement
action. A database tracks burn permits and air
quality, and an approved burn list is shared with
the other agencies each day. The Tribe uses
forecasting tools and the monitoring network to
issue permits and burn bans.

Reintroducing Gray Wolves
The Tribe contracted with the U.S. Fish and
Wildlife Service to lead gray wolf recovery
efforts in Idaho. In 1999, Harvard University’s
Project on American Indian Economic
                                                         Gray Wolf at Wolf Education and Research Center
Development recognized the Tribe and its
contributions to the Wolf Recovery Program
with an “Honoring Nations” award. The success       In addition to public education efforts, the Nez
of the Wolf Recovery Program represents a           Perce Tribe developed ways to mitigate concerns
cultural triumph to the Nez Perce people, since     of ranchers and the State of Idaho about
their heritage includes a reverence for wildlife.   wolf-livestock conflicts. To address these
                                                    concerns, the Tribe compensates ranchers for
The Wolf Recovery Program was the first time        losses through a fund established in conjunction
the federal government contracted with a Native     with Defenders of Wildlife, a non-profit
American Tribe to manage recovery of an             organization. The State of Idaho has established
endangered species. The goal of the U.S. Fish       a compensation fund, and is working with the
and Wildlife Service was to have 10 breeding        Tribe to manage wolf populations.
pairs in each of the recovery areas (Idaho,
Montana, and Wyoming) for 3 years. In the first
2 years of the Program (1995-97), the Tribe
released 35 wolves into the Idaho wilderness. In       “The sanctuary on the Nez Perce
1998, through monitoring radio-collared wolves,         Reservation will provide for our
the Tribe documented 10 breeding pairs, thereby        Tribal members an opportunity to
meeting the recovery goal for Idaho. By 2005,           experience a reunification of the
the wolf population had grown to 512 individu-        cultural and spiritual bond. In turn it
als, with 36 breeding pairs producing 123 pups.        will allow the non Indian world to
                                                             experience the same.”
To overcome deep-rooted fear and                              —Levi Holt, former chair of the Nez
misunderstanding of wolves, the Tribe                             Perce Fish and Wildlife Committee
conducted seminars to educate the public. It also
partnered with the Wolf Education and Research
Center to establish a visitor center on the
reservation. The center increases public
awareness by using four gray wolves to serve as     Contact: Aaron Miles Sr.,
ambassadors for the Program. Born in captivity,     Manager, Department of Natural
these wolves live in a 20-acre enclosure that is    Resources, Nez Perce Tribe,
one of the largest of its kind in North America.    208-843-7400 ext. 2380 or
                                                    2moon@nezperce.org
                                                                                                      19
             Ohkay
            Owingeh                                  Wetlands Restoration
                                                     The Ohkay Owingeh began restoring wetlands to
                                                     reverse the adverse effects associated with a
Named for “the place of the strong people,” the      channel project on the Rio Grande conducted by
Ohkay Owingeh Tribe in New Mexico comprises          the U.S. Army Corps of Engineers. In the 1950s,
about 2,400 people, of whom about 2,100 live on                                        the Corps chan-
the Tribe’s Pueblo. There are 450 homes on                                             neled, diked and
Tribally owned land, but close to 12,000 people                                        ultimately
live within Tribal boundaries, and 30,000 people                                       straightened the
live within a 10-mile radius. According to the                                         Rio Grande to
Ohkay Owingeh, the Pueblo has been continu-                                            control
ously occupied for over 700 years. The Rio                                             flooding. The
Grande and the Rio Chama crisscross Tribal                                             channel project,
lands. All local drinking water is either well                                         however,
water or other groundwater outlets.                  Former Wetland
                                                                                       removed water
                                                                                       from the
The Tribe began using its Tewa name “Ohkay           bosque,1 and the native vegetation and wildlife
Owingeh” in November 2005, after having gone         associated with that environment disappeared.
by the Spanish name “San Juan Pueblo” since          Straightening the river also affected humans be-
the days of Spanish rule in the late 16th century.   cause wetlands act as a secondary filtration sys-
Ohkay Owingeh is the name of the starting place      tem for water. Water eventually goes back into
of the August 10, 1680 Pueblo Revolt against         the ground and becomes part of the groundwater
Spanish rule, and the Eight Northern Indian          system. As all Tribal water came from wells or
Pueblos Council is headquartered on the              other groundwater outlets, the Tribe’s water
Pueblo. Every July, a native crafts fair is held     quality decreased with straightening of the river.
on the Eight Northern Pueblos grounds,
attended by about 24,000.                            The Tribe is
                                                     currently
The Ohkay Owingeh have few economic                  restoring 750
resources: the finance department is small; staff    acres: some
turnover is a problem; and funding is                have already
continually an issue. To overcome these              been restored;
barriers, Tribal officials continue to look for      others are be-
new opportunities to create funding and growth.      ing restored,
For example, the Tribe rents out spaces in its RV    and still oth-
park. Tsay, a Tribe-owned corporation, owns          ers are in the
and operates the Ohkay Owingeh casino and            restoration
                                                     planning proc-                    Restored Wetland
hotel. The Tribe raises cattle and leases land
for cattle grazing as well as a Tribally-owned       ess. A contractor guides Tribal restoration ef-
radio/cell phone tower. The Tribe has also built     forts, with much of the work done by volunteers
community low-income housing on Pueblo lands         and students. The Tribe closely monitors resto-
and received the 2004 National Award for Smart       ration efforts because conditions on the Pueblo,
Growth Achievement from the EPA.                     1
                                                      Bosque is the name for areas of riparian forest found
                                                     along the flood plains of stream and river banks in the
                                                     southwestern United States.

20
   Wetlands Restoration & Waste Management
especially in the bosque area, continue to change
and evolve. Tribal officials estimate 1,500 to
2000 acres within the Pueblo could be restored
as wetlands.

The Tribe is also working with outside commu-
nities to restore wetlands and improve overall
water quality. Many of the Tribe’s wetland
restoration efforts are now being copied along
other portions of the Rio Grande. Successful
wetland restoration has resulted in revival of the
                                                                                 Waste Transfer Station
beaver population. The Ohkay Owingeh
consider beaver to be the Tribe’s “natural            vegetation now covers the landfill, and the
volunteers,” as beaver dams have increased local      former dump is indistinguishable from the
movement, distribution and quality of water.          surrounding landscape.
Other species inhabiting the newly created
bosque areas include bullfrogs, turtles, trout,       To replace the dump, the Ohkay Owingeh
pike, catfish, river carp, elk, black bear, cougar,   installed a waste transfer station, which uses a
southwestern willow flycatcher, pheasant and          unique, zigzag design that makes moving bins
grouse. To ensure continued protection of             efficient. To overcome resistance to using the
wetland areas, the Tribal Council issued a            new transfer station, Tribal environmental and
declaration that 100 feet from the Rio Grande on      sanitation officials held community meetings
either side will be forever protected (no             that focused on the importance of the station in
development allowed).                                 preventing environmental and health hazards,
                                                      such as solid waste contaminants seeping into
Dump Closure and New Transfer Station                 well water and groundwater.
It took 2 years for the Ohkay Owingeh to
secure funding but only 3 months to complete a        Tribal officials are continuing community
project to clean and close a 40-acre solid waste      outreach to encourage station use and
dump. The solid waste collected from the dump         compliance. Along with Rio Arriba County, the
site was placed in a small, contained landfill area   City of Espanola, and the Pueblo of Santa Clara,
and capped with 8 inches of topsoil. Native           the Tribe also co-owns the North Central Solid
                                                      Waste Authority, which offers a broad range of
                                                      solid waste services for its customers.

                                                              “Our goal is maintenance of
                                                              wetlands by natural means.”
                                                                       —Charles Lujan, Director,
                                                                           Office of Environmental Affairs




                                                      Contact: Charles Lujan, Director,
                                                      Office of Environmental Affairs,
                                                      Ohkay Owingeh, 505-852-4212 or
                         Former Open Dump Site        cwlujan@yahoo.com
                                                                                                             21
        Penobscot
      Indian Nation                                  Water Quality, Wildlife, and Human
                                                     Health
                                                     The Penobscot Indian Nation has been
The Penobscot Indian Nation of Maine                 successful in its efforts to improve water quality,
possesses a land base of over 140,000 acres of       the health of the Penobscot River and related fish
noncontiguous holdings composed of islands           and wildlife, and human health. Water quality is
and some mainland parcels throughout the             a critical issue for the Penobscot because fish
State. The Penobscot holds territory as              and other aquatic life are traditional food
reservation trust and fee land. Tribal life has      sources. Paper mills and other industrial plants
always been centered in the Penobscot’s              discharge dioxins, polychlorinated biphenyls
traditional homeland in the Penobscot River          (PCBs), and other wastes into reservation waters.
watershed. Most of the 2,129 Penobscot               Repeated testing has shown these pollutants have
members reside on Indian Island in the middle        been passed to local fish through the water.
of the Penobscot River. Many of the                  Because of this contamination, the Penobscot
Penobscot’s lands are forested, and logging and      states that its cancer rate is twice that of
paper mills are prevalent industrial activities in   anywhere else in Maine.
the area. The Tribal Council is composed of 12
elected members led by a chief and vice-chief.




             Painting by Former Chief Barry Dana        Penobscot Indian Nation Water Resources Program

The chief of the Penobscot says that their           After much discussion and negotiation, the
“hands-on,” traditional approach has led to          Penobscot persuaded a paper mill to change its
environmental and natural resource                   processes to be more progressive and less
improvements. The philosophy of a healthy            polluting. The Penobscot thus improved the
environment inherent in the Penobscot’s cultural     environment without inhibiting paper mill
tradition creates an incentive for Tribal            operations. Quantitatively, the change in mill
employees to be successful because they know         processes translated to reduced pollution from
they have a responsibility to preserve the           10 years ago, and qualitatively, the water looked
environment for future generations. One              and smelled better than before.
member cited the dedication of the
environmental staff as an example of the             The Penobscot also has a cooperative agreement
Penobscot’s commitment to preserving its             with the State of Maine’s Department of
surroundings.                                        Environmental Protection to share water quality

22
                                             Water Quality & Education
data and technical assistance. The Penobscot         Educational Material - “How Mother Bear
provided water-quality data that supported           Taught the Children About Lead"
revised water classifications for more than          Lead paint is a problem for the Penobscot Indian
500 miles of stream and river segments. As a         Nation, as one-half of all its housing was built
result, the State of Maine upgraded the              before 1978 and is likely to have lead paint. The
protection and classification of these segments      Penobscot developed the Mother Bear Program
for usage and cleanliness. The upgraded              to educate its community and highlight the dan-
classifications provide protections for future       gers of lead.
traditional uses. The Penobscot also has grant-      Mother Bear
funded labs to analyze water and air samples and     was based on
provides water-related education to the local        the
community through school programs, such as           Leadbusters
“fish friends,” and workshops for adults on          Program
topics such as non-point source pollution.           developed by
                                                     the State of
Work completed under another Penobscot               Connecticut for
effort—the Penobscot River Restoration Trust—        its schools.
will result in 100 percent of historical migratory   According to a
fish habitat on the River being open for the first   Penobscot
time in over 200 years. The Penobscot helped to      environmental
create the Trust under subsection 501(c)(3) of       health official,
the U.S. Internal Revenue Code to raise funds to     the How Mother
restore the River. Participants include              Bear Taught the                  Educational Booklet
American Rivers, Atlantic Salmon Federation,         Children About
Maine Audubon, the Nature Conservancy,               Lead booklet and CD-ROM are effective
Natural Resources Council of Maine, and Trout        educational tools. In fact, Tribes from all over
Unlimited. To date, two main stem dams in the        the country have asked for Mother Bear Program
River Basin are scheduled for demolition to          materials, and 2 years ago, the Penobscot Indian
facilitate the transit of Atlantic Salmon, and a     Nation won a national environmental award for
fish bypass is planned for a third dam.              the Program.

The Penobscot has other ongoing efforts to clean            “We have been here for 10,000
and protect local waterways. The                           years and we plan to be here for
Penobscot’s contractor invented the “beaver                       another 10,000.”
deceiver,” a trapezoid structure that protects wa-
ter outflows to prevent beaver damming.
                                                                  —James Sappier, former Chief,
                                                                     Penobscot Indian Nation
Government agencies rejected the deceiver as a
concept that would never work. Penobscot
officials continued pursuing the idea, however,      Contacts: John S. Banks, Director,
until a federal agency awarded grant funding to      Dept. of Natural Resources,
                                                     207-817-7330 or
try the deceiver. The deceiver worked very well      jbanks@penobscotnation.org
and has not only saved the Penobscot about           Dale Mitchell,
$200,000 in roadwork costs, but also prevented       Environmental Health Tech.,
the eradication of many beavers.                     207-827-7401 or
                                                     dalem@wabanaki.com
                                                     Penobscot Indian Nation
                                                                                                      23
     Native Village of
       Port Lions
On March 27, 1964, an earthquake and tsunami
destroyed the Afognak Village on Afognak
Island, a part of the Kodiak Archipelago lying
225 air miles south of Anchorage in the Gulf of
Alaska. The Village was home to members of
the Alutiiq, who have lived in the Archipelago
for about 10,000 years. The inhabitants of
Afognak Village relocated to a new site in
Settler Cove on nearby Kodiak Island. The new
village was named Port Lions in honor of the
Lions Club for its support in rebuilding and
relocating the village.

Although the Native Village of Port Lions has
425 enrolled members, only about 220 people         Bear-Proofing the Dump
currently live there. Sixty percent are Alaska      The 5.73-acre, unfenced dump at Port Lions
Natives. The community of Port Lions is             attracts Kodiak bears, which are found only on
governed by a city government, and the              the islands of the Kodiak Archipelago. When
Traditional Tribal Council governs the Tribal       salmon runs are late or wild berry crops are low,
organization. Remote and isolated and with no       bears depend more on human food and
connecting roads to the rest of Kodiak Island,      congregate at the dump, strewing trash over large
the Village can be reached only by boat or small    areas. Reaching heights of over 10 feet and
aircraft, resulting in high transportation costs.   weighing as much as 1,500 pounds, the bears can
                                                    also pose a threat to public safety. The Village is
The Village has developed a Comprehensive           working with the U.S. Fish and Wildlife Service
Community Plan, reflecting its commitment to a      on a bear rehabilitation project to keep bears out
“beautiful, healthy, and clean environment” and     of the dump. Currently, the perimeter of the
a “traditional way of life while encouraging        dump is being cleared to facilitate installation of
progress.” Because of the Village’s remote          an electric fence. Bear-proof dumpsters will be
location and high transportation costs,             placed outside the fence.
a primary concern is waste management. The
Tribal Council established an environmental
office and an action plan to safeguard public
health and involve the community both in devel-
oping and achieving community goals, including
reducing, reusing, and recycling waste materi-
als. For example, the Village has developed a
Solid Waste Management Master Plan, adopted
by Port Lions, and formed a Village Environ-
mental Committee, which has developed strong
working relationships with the city government
and with the Kodiak Island Borough.
                                                             Clearing Trees for Fence Around Dump
24
         Bear Rehabilitation & Waste Management
                                                                            Borough. Success thus far can be
                                                                            measured by the following
                                                                            accomplishments:

                                                                            ♦ Removing 300 tons of scrap
                                                                              metal.
                                                                            ♦ Collecting and stocking
                                                                              scrap metal for recycling.
                                                                            ♦ Cleaning, crushing, palletizing,
                                                                              and shrink-wrapping for
                                                                              shipment and recycling empty
                                                                              55-gallon drums used for oil,
                                                                              diesel, gasoline, and hydraulic
                                                                              fluid.
                                                                            ♦ Recycling cans, ink
                                                                              cartridges, batteries,
                                                                              aerosols, fluorescent bulbs,
                                                                              and magazines.
                                       Kodiak Bear in the Port Lions Dump

Succeeding at Waste Management                             In 2005, Village environmental staff gave each
With an emphasis on community caring, trust,               Port Lions household a can crusher and a large
and respect, the Village is achieving its waste            container to encourage aluminum recycling. The
management goals. Education and outreach                   Alaskans for Litter Prevention & Recycling's
programs have successfully promoted responsi-              Flying Cans Program, in association with the
ble hazardous waste practices. For example,                Alaska Air Carriers Association, sponsor
Village environmental staff talked to school               aluminum recycling. Rural Alaska communities
children about pollutants on Earth Day. They               get free backhauling, enabling them to earn
also produced a play “Criteria Pollutants,” and            money from the sale of cans to the Anchorage
children learned about segregating                         Recycling Center. This support is significant,
recyclables from hazardous wastes. Educational             considering the remote locations and high cost of
brochures on recycling, garbage segregation,               transportation of some native villages.
solid waste management, household hazardous
waste, water quality, and indoor and ambient air           “We are a small healthy rural community that is a safe
quality also increased community awareness.                    place to live where our children enjoy growing,
                                                             learning and want to stay. We enjoy the peace and
                                                           challenge of our beautiful, clean environment . . . [and]
The Village now sends lead acid batteries to                take pride in our history and cultures. . . . We are a
Kodiak by Alaska State ferry about twice a year.             community where families and friendships flourish
                                                                 through caring, trust, and mutual respect.”
This effort prevents the 5 tons of batteries that
                                                                 —Community Vision, Native Village of Port Lions
have been recycled to date from leaching into the
Port Lions’ environment. By making large
shipments rather than many small shipments, the
Village reduced costs.
                                                           Contact: Wanda Kaiser,
In the fall of 2004, Port Lions began recycling            Environmental Specialist,
through a partnership with the Kodiak Island               Native Village of Port Lions,
                                                           907-454-2234 or wanda@portlions.net
                                                                                                                 25
      Saint Regis
     Mohawk Tribe                                  Solid Waste Management
                                                   The Tribe established solid waste management
                                                   services based on input from within the Tribal
The Saint Regis Mohawk Tribe is the component      community. To build interest and reduce
of the Akwesasne Mohawk Nation that is located     resistance, Saint Regis Mohawk officials
in the United States. The Akwesasne Mohawk         conducted a community survey in the mid-1990s
Nation also has land in Canada. The Nation’s       about Tribal desires for solid waste management.
population totals about 15,000 members. The        Survey results indicated that Saint Regis
Saint Regis Mohawk Tribe is headquartered in       Mohawk members did not like outside
Akwesasne, New York, on about 14,000 acres.        (non-Tribal) haulers, but would support a
Tribal members total about 10,500.                 Tribally managed solid waste program.

The Saint Regis Mohawk Tribe started its
environmental programs in 1978, based on
concerns about a large, open dump at a General
Motors’ plant adjacent to the Tribe and the St.
Lawrence River. The Tribe independently
learned to put in groundwater wells, collect
samples, and monitor and design sampling
equipment. It now has its own lab with modern
equipment for scheduled testing.

Over time, the Saint Regis Mohawk Tribe has
become more sophisticated and is considered a
local expert in environmental, natural resource,
and human health issues. The Tribe presently
has about 30 staff who implement an
environmental protection program responsible
for air and water quality monitoring, soil
analysis, developing and enforcing Tribal                                      Modular Transfer Station
standards, sanitation and waste disposal,
environmental rehabilitation and reclamation,      The Saint Regis Mohawk began curbside
and emergency preparedness and response.           collection in 2002 and now has a solid waste
                                                   management code. The Tribe’s residential
The Saint Regis Mohawk Tribe promotes an           collection process is “pay as you throw” - $2 per
atmosphere of interdependency rather than          blue bag. The best feature of this system is that
independence. Tribal officials believe strong      users pay only for the amount of trash they
external relationships enhance the potential for   generate. The Tribe offers other options for
successful program implementation. Sharing         commercial users, such as monthly fees and
resources with other entities can result in        bulky item pick-up. The Tribe is also working to
greater efficiency and broader program             establish a container service for local businesses.
implementation.
                                                   All waste goes to the Saint Regis Mohawk
                                                   modular design transfer station. At the transfer
                                                   station, the Tribe collects both waste and

26
   Waste Management & Educational Outreach
recyclables and processes recyclables for resale.
Solid waste services are available to the
non-Tribal community as well. Presently, the
non-Tribal community uses the Tribe’s system
on a limited basis. However, Tribal officials
hope that, over time, the Tribe’s educational
outreach program will increase non-Tribal use.

Educational Outreach
The Saint Regis Mohawk Tribe conducts an
educational program, “respect, reduce, reuse,
recycle,” to inform the public about the direct
impact of solid waste on the community. The
Tribe is also developing strategic partnerships
with other entities. For example, the Tribe
implemented an agreement with Clarkson
University to create a Tribal biodiesel program.

Another outreach activity is a cartoon, Kwis and
Tiio, on solid waste, energy efficiency, and
recycling. EPA granted money to the Tribe in
1997 to develop a solid waste education program
that conveyed environmental messages with
humor. Two local Mohawk artists created
cartoons featuring Kwis and Tiio and first
published them in 1998. EPA awarded a second                                           Solid Waste Cartoon
grant to continue developing the Kwis and Tiio
cartoon series, with a focus on recycling and
energy efficiency issues. The second set of               “The Saint Regis Mohawk Tribe is
cartoons was published locally and distributed             interdependent, not independent
throughout the United States in the summer of                  from other governments.
2000.                                                     By working together, you conserve
                                                          resources and are more efficient.”
                                                                   —James Ransom, Tribal Chief
                                                                       Saint Regis Mohawk Tribe




                                                      Contact: Ken Jock, Director,
                                                      Environment Division,
                                                      St. Regis Mohawk,
                                                      518-358-5937 ext 116 or
           Community Recycling Collection Container   ken_jock@srmtenv.org
                                                                                                       27
          Sokaogon
          Chippewa                                  Protecting Water Quality and Dependent
                                                    Natural Resources
                                                    In 2003, the Sokaogon Chippewa Community
The Sokaogon Chippewa Community resides on          and the Forest County Potawatomi purchased a
land containing one of the last remaining           mining company and all the land associated with
ancient wild rice beds in the world. Community      the proposed Crandon Mine for $16.5 million.
clans migrated from eastern Canada 1,000 years      In early 2006, the Sokaogon Chippewa obtained
ago, led by a vision that their journey would end   a bond for $7,948,000 and the Wolf River Pro-
in a land where the "food grows on water,"          tection Fund, Inc. contributed $52,000 to pay off
referring to Manomin (wild rice). The annual        the debt incurred for the purchase. In November
harvest of wild rice is an important cultural       2006, the Sokaogon Chippewa and Forest
practice for the Sokaogon Chippewa and has          County Potawatomi obtained all of the mineral
changed little in hundreds of years. Wild rice      rights, timber rights and all other such ties to the
has been an essential resource to Community         former mining land. The pristine water quality
survival, demonstrated by the Community’s           essential to wild rice, other wetland and aquatic
willingness to go to war in 1806 to maintain        vegetation, and abundant fisheries is now perma-
control of the wild rice.                           nently protected from the threat of the Crandon
                                                    Mine.

                                                    Community opposition to the mine began in
                                                    1978, when a mining company submitted permit
                                                    applications to begin ore mining operations on
                                                    land less than 2 miles upstream from Sokaogon
                                                    Chippewa lands. Other large mining companies
                                                    later submitted permit applications in attempts to
                                                    gain approval to begin operations. The
                                                    proposed mine was a major concern for the
                                                    Community because of the sensitivity of wild
                                     Rice Lake      rice, fisheries, and other natural resources to
Today, natural resources are a substantial part     changes in water quality. The reservation
of Community culture and are therefore a top        depends on Rice Lake, a 220-acre wild rice bed
priority. The Sokaogon Chippewa consider the        that has been the cultural centerpiece of the
most important environmental and natural            Community for centuries.
resource objectives to be protection, assessment,
and restoration. The Community emphasizes           The proposed mine also threatened water quality
protection, however, based on the reasoning that    for other local communities, including the
successfully protected resources do not need to     neighboring Menominee, Potawatomi, and
be part of costly restoration processes.            Stockbridge-Munsee Tribes. The local
                                                    communities were concerned about the adverse
The Sokaogon Chippewa recently acquired             short- and long-term effects on the environment
1,320 acres of land – bringing their total          and natural resources that would result from
contiguous land base to about 3,250 acres. The      mining operations. Based on the potential threat
Community is relatively small, with about           to water quality, Sokaogon Chippewa
1,300 members, 40 of whom live on the               environmental and natural
reservation.                                        resource officials began

28
          Water Quality & Invasive Species Control
collecting and analyzing water                                           Sokaogon Chippewa officials
quality data to determine the                                            conduct an educational and
relationship of water quality to                                         outreach program to inform the
wild rice, fisheries, and other                                          community of adverse impacts
natural resources. Analysis                                              that can result from invasive
showed that wild rice and other                                          species. For example, the
resources are sensitive to                                               Sokaogon Environmental
contaminants that could result                                           Department conducts a fair
from mining.                                                             each summer to address
                                                                         environmental and natural
To increase awareness of water                                           resource issues and promote
quality issues associated with                                           effective environmental
mining, the Community                                                    practices.
conducted an outreach and
education program throughout                                           During the fair, Sokaogon
local and state communities.                                           Chippewa officials use creative
Using modeling and data                                                approaches, such as games and
analysis, the Community                                                demonstrations, to educate the
presented compelling conclu-                                           community. A great deal of
sions about the effect of mining                           Wolf River attention is focused on invasive
on water quality. With this pro-                                       aquatic species. The fair pro-
gram, the Sokaogon Chippewa gained needed            vides an entertaining and interesting approach to
support throughout Wisconsin, as well as from        teach community members how to avoid the
nationally recognized grassroots organizations.      spread of these invasive species.
Most important were the
relationships built with neighboring Tribes,
which resulted in an alliance with the Sokaogon
Chippewa and the Menominee, Potawatomi, and
Stockbridge-Munsee Tribes. This alliance and               “Common goals, objectives and
other support were extremely effective.                      concerns work for effective
                                                              relationships regardless
Invasive Species Management                                     of different cultures.”
The Sokaogon Chippewa Community has also                         —Tina L. Van Zile, Tribal Vice Chair,
become involved in efforts to reduce the intro-                      Sokaogon Chippewa Community
duction of invasive species, particularly into wa-
ter resources, which can adversely affect native
vegetation and fisheries. Invasive species that
are becoming problematic in the region include
the Zebra Mussel, Rusty Crayfish, and various
plant species. Of particular concern is the Zebra
Mussel, which is showing up in local waters and
is easily transferred from one area to another.      Contact: Tina L. Van Zile,
Lack of public awareness is a primary reason for     Environmental Director,
the undesirable spread of invasive species.          Sokaogon Chippewa,
To increase awareness,                               715-478-7605 or
                                                     tinavz30@newnorth.net
                                                                                                         29
          Susanville
          Rancheria                                   The Rancheria’s long-term goal is to return
                                                      Cradle Valley Ranch to pre-settlement
                                                      conditions. The Rancheria would also like to
Chartered under the Indian Reorganization Act         develop a cultural center and a stewardship area
of 1934, the Susanville Indian Rancheria is           to educate the public about the ways native
located in northeastern California and consists       peoples lived and managed ecosystems. The
of 427 members of the Maidu, Paiute, Pit River,       property will be used for Native American
and Washoe Tribes. The governing body of the          traditional gatherings and ceremonies as well.
Rancheria is the General Council, composed of         Currently, no cultural area such as this exists in
all the members who are at least 18 years old.        Plumas or in neighboring Lassen county. The
                                                      Rancheria included a need for a cultural area in
Before 2002, the Rancheria owned just over            its Master Plan, adopted in 2004.
300 acres. In March 2002, the Rancheria
purchased 875 acres and completed an                  The first step in returning the property to its pre-
environmental assessment in 2003. The                 settlement condition was to restore and enhance
Rancheria is currently drafting a forest              the native ecosystem. Using traditional land
management plan to ensure responsible land            management techniques, the Environmental Pro-
management.                                           tection Department accomplished the following:

In 2003, the Rancheria purchased the 160-acre         ♦   Enlisted the help of the U.S. Forest Service
Cradle Valley Ranch, located near Antelope                to evaluate existing forest health conditions
Lake in Plumas County. For many years, the                and used the evaluation to guide forest
Ranch had been a private summer home and                  management of the property.
wilderness retreat. During this time, cattle
grazing on the Ranch had eliminated wetland           ♦   Partnered with the U.S. Fish and Wildlife
grasses and destroyed Clark’s Creek, which                Service, EPA, Natural Resources Conserva-
runs through the property. The uncontrolled               tion Service, and North Cal-Neva Resource
grazing                                                   Conservation & Development to build a
severely                                                  fence demonstration project on the Ranch.
degraded                                                  The purpose of the project, known as the
habitats for                                              Indigenous Landscape Enhancement Project,
a variety of
fish and
wildlife
resources
significant
to the
Rancheria.       Clark’s Creek Prior to Restoration


With funding from EPA, the Rancheria
established an Environmental Protection
Department, whose mission is to assess, protect,
and enhance the environment on Rancheria
lands.
                                                                             Fencing Demonstration Project
30
                                 Responsible Land Management
    was to keep livestock off                                                Rancheria, however, was able
    the property and allow                                                   to reclaim about one-fourth of
    natural vegetation to                                                    the Cradle Valley Ranch
    recover. The use of barb-                                                purchase price by placing a
    less wire for the bottom                                                 portion of the property into a
    strand of the 2.5-mile                                                   30-year conservation
    fence allowed wildlife,                                                  easement under the U.S.
    such as deer, safe access                                                Department of Agriculture’s
    to the property.                                                         Wetland Reserve Program.
                                                                             The easement requires that
♦   Developed an Integrated                                                  habitat for wetland, migratory
    Pest Management                                                          bird, and at-risk species be
    program to reduce the                                                    the primary use of the land.
    spread of noxious weeds                                                  The Rancheria has signed a
    on the property.                                                         Wetland Reserve Plan of
                                                                             Operation, which describes
♦   Consulted with other                                                     allowable land use activities.
    agencies to restore the
    water table and natural                                                Other land management
    hydrology of Clark’s                                                   agencies are often unaware of
    Creek and improve                               Restored Clark’s Creek
                                                                           the location or importance of
    wetland and fish habitat.                                              cultural sites on public land.
                                                       To improve understanding and cooperation in
♦   Collaborated with a non-profit, the Humboldt       this area, the Environmental Protection
    Area Foundation, to develop an inventory of        Department conducts informal monthly meetings
    traditional use plants and build a garden to       with local representatives from the Bureau of
    propagate native plants for regenerating           Land Management and the U.S. Forest Service.
    degraded areas.                                    The Rancheria’s Tribal Chairman also meets
                                                       quarterly with these two agencies.
♦   Reintroduced traditional use plants, such as
    elderberry and bear grass, to a 5- to 10-acre            “Treat the earth well! It was not
    area. Rancheria members watered the native                given to you by your parents;
    plants by hand and fashioned wire cages to           it was loaned to you by your children.
    protect against wildlife browsing.                         We do not inherit the earth
                                                                  from our ancestors;
♦   Gathered about 500 willow cuttings by hand               we borrow it from our children.”
    and planted them along the entire 1/2-mile
                                                              — Ancient Indian Proverb,
    length of Clark’s Creek.                                      Susanville Indian Rancheria Master Plan

♦   Evaluated photos and collected data to
    validate efforts that improved fish and
    wildlife habitat.                                  Contact: Tim Keesey,
                                                       Environmental Manager,
Obtaining funding for land acquisition is often        Susanville Indian Rancheria,
difficult for Native American Tribes. The              530-251-5623 or
                                                       tkeesey@sir-nsn.gov
                                                                                                            31
     Warm Springs
        Tribes                                       Integrated Resource Management Plan
                                                     The Integrated Resource Management Plan
                                                     reflects the Tribes’ belief that holistic
The Warm Springs, Wasco, and Northern Paiute         management of resources achieves multiple
Tribes, totaling about 4,400 members, make up        benefits. The Plan addresses natural resources,
the Confederated Tribes of the Warm Springs          such as timber harvests, water quality, and fish
Reservation of Oregon. The reservation was           and wildlife habitat, as well as cultural resources,
created by an 1855 Treaty, which ceded 10            such as archaeological sites and traditional plant
million acres of Tribal land to the federal          foods. To incorporate the results of ongoing
government in return for reserving                   scientific research in the Plan and keep it in
approximately 640,000 acres in north-central         balance with future resource needs, the Tribes
Oregon. The Tribes kept their rights to harvest      review the Plan every 5 years.
fish, game and other foods, and pasture livestock
in ceded and usual and accustomed lands off the      Control of 99 percent of the land within
reservation. The Dawes Act of 1887 allowed           reservation boundaries allows the Tribes to
non-Indians to purchase property within              enforce Plan policies and practice sustainable
reservation boundaries. The Tribes have              forestry. In 2003, Tribal forestry practices were
repurchased most of that land, however, and          formally recognized and certified as meeting
today, only about 1 percent of reservation land      professional forest sustainability standards
is non-tribally owned.                               developed by the Forest Stewardship Council.

The Tribes’ economy relies heavily on natural        Every October, the Tribes host a 3-day harmony
resources, including forest products, hydro-         workshop for federal agencies to share
power, and tourism. Tribal management of             information about the Tribes and the Plan. The
resources reflects an emphasis on self-              Tribes also host indigenous groups from around
sufficiency and on traditional beliefs in unity,     the world, including Russia, Brazil, Australia,
spirituality, and respect for the land, water, and   and Canada, which come to discuss Tribal
each other. In 1992, the Tribes were the first to    implementation of the Plan. By comparing
develop an Integrated Resource Management            present and historic land conditions, the Tribes
Plan, which laid out a holistic vision for           have made the Plan a dynamic document that
managing all reservation resources. In               reflects changing resource conditions and
partnership with federal agencies, the Tribes        protects Tribal resources for future generations.
also undertook restoration projects in the
8,000 square-mile John Day watershed, which          John Day Watershed Restoration
was part of the land ceded to the federal            The John Day watershed provides critical
government in 1855. The John Day River is the        habitat for a number of fish and wildlife species,
second longest free-flowing river in the             including trout, salmon, sandhill cranes,
contiguous United States and is the life blood for   Canadian geese, and Rocky Mountain elk.
Native and non-Native Americans.                     Through their John Day Basin Office,
                                                     established in 1997, the Tribes have successfully
In October 2002, DOI’s Office of Environmental       partnered with public and private landowners to
Policy and Compliance awarded the Tribes an          mitigate damages caused by hydropower
Environmental Achievement Award in honor of          production and to help restore the watershed.
their “superior accomplishments in
environmental stewardship and management.”
32
Integrated Planning & Watershed Restoration
Since its inception, the Office has completed
over 100 restoration projects, including:

♦   Replacing 66 diversion dams that hindered
    fish passage with fish-friendly diversions to
    enhance 50 miles of migratory, spawning,
    and rearing habitat for steelhead and
    Chinook salmon.
♦   Clearing and replacing 2,387 acres of
    western juniper with desirable native species
    to improve headwater flows.
♦   Installing protective fencing and planting
                                                                              Tree Plantings in a Riparian Area
    hardwoods on 34 miles of riparian land.
♦   Completing seven irrigation projects to            complete. Federal agencies, on the other hand,
    increase base flows in the upper basin.            are sometimes seen as getting projects started
♦   Completing nine underground irrigation pipe        and then moving on, leaving landowners with
    projects to cool irrigation water returning to     little support. The Tribes also support local
    the river.                                         communities by presenting an educational booth
♦   Installing nine livestock watering areas to        at the annual county fair and sponsoring local
    divert livestock away from riparian areas and      conservation groups and youth organizations.
    improve riparian habitat.
♦   Establishing a nursery for native plants to        Tribal partners include the Natural Resource
    provide native cuttings and seedlings for          Conservation Service; Grant Soil and Water
    planting in the watershed.                         Conservation District; Bureau of Reclamation;
                                                       U.S. Fish and Wildlife Service; Bureau of Land
                                                       Management; and Bonneville Power
                                                       Administration, who provided funding.

                                                           “Decisions and actions may have
                                                                 short-term benefits or
                                                           consequences, but they also have
                                                               the potential to impact the
                                                                environment for several
                                                          generations. These impacts must be
                                                            adequately considered to ensure
                                                            cultural and economic security.”
                                                               — Warm Springs’ Integrated Resource
                             Fish Friendly Diversion                Management Plan

The Tribes’ good neighbor policy has been very
successful in creating productive working              Contact: Robert A. (Bobby) Brunoe,
relationships with ranchers and farmers in the         General Manager, Branch of Natural
watershed. The Tribes are viewed as a partner          Resources, Confederated Tribes of the
that will “stay the course” in achieving restora-      Warm Springs Reservation of Oregon,
tion goals and be around long after projects are       541-553-2015 or
                                                       rbrunoe@wsTribes.org
                                                                                                            33
                 Wiyot
                 Tribe                                 Nearly 150 years after the Indian Island
                                                       massacre, the vision of a restored Indian Island
                                                       hosting the World Renewal Ceremony is
The Humboldt Bay area of northern California           becoming a reality. In 2001, the 500-member
is the ancestral home of the Wiyot people, who         Tribe purchased the 1.5-acre shipyard repair
numbered about 2,000 in 1850. In 1860,                 facility, the site of most of the contamination and
settlers massacred Wiyots during their annual          debris on the Island. The ability of the Tribe to
World Renewal Ceremony at Tuluwat Village,                                                 make this
on what is now known as Indian Island, the                                                 purchase was
center of Wiyot territory. Aside from the Wiyots                                           the result, in
who were away at the time of the massacre, only                                            part, of sunset
one baby, the son of the Wiyot leader, survived.                                           vigils held since
The Tribe’s current chairwoman is the                                                      1992 at the edge
great-granddaughter of this lone survivor. By                                              of Humboldt
1910, there were fewer than 100 full-blood                                                 Bay in Eureka.
Wiyots because of disease, loss of resources,                                              Each year,
relocation, slavery, and genocide.                                                         several hundred
                                                                                           people gather
The settlers took possession of the 270-acre           here, within sight of the Island, to reaffirm the
Island and used it for a shipyard, homesteads,         Wiyot dream of reclaiming a sacred site. The
and agricul-                                           vigils have raised community awareness and
ture. Over                                             helped initiate concerted fund-raising efforts,
time, the                                              which ranged from selling fry bread and T-shirts
Island was                                             to hosting concerts. Establishing the Wiyot
contami-                                               Sacred Sites Fund was also a catalyst for
nated and                                              fundraising and building partnerships with local
degraded by                                            organizations.
creosote and
other                      Shipyard on Indian Island   Restoration began with removing heavy debris
chemicals used to maintain the ships and by            from the island. Local organizations stepped
dikes and drains built to control tidal flows.         forward to help. The Hoopa Tribal Civilian
With closure of the shipyard in the 1980s, the         Community Corps and local church groups
Island was covered with dilapidated buildings          helped the Tribe
and tons of scattered metal and wood debris.           gather tons of metal
                                                       and wood debris.
An ancient shell mound, comprising 6 acres of          Because the Tribe did
oyster and other shells, had been severely             not have a boat, the
degraded, with an estimated 2,000 cubic yards          Coast Seafoods
lost between 1913 and 1985. In addition, the           Company offered to
shell mound has been heavily looted. As the site       transport the debris to
of Tribal congregations and feasts over                the mainland, and
millennia of use, the mound has great cultural         Sierra Pacific
significance to the Wiyot people.                      Industries provided
                                                       the use of its dock for
                                                       offloading.
                                                                                            Erosion Control
34
                                                       Restoring Indian Island
A significant challenge
was developing a
permanent erosion
control system. After an
extensive research and
design process, that
included a feasibility
study and a geotechnical
analysis, the Tribe hired a
contractor to install sheet
piling along the shell
mound and place fill in
the eroded area behind
the piling. The sheet
piling option was chosen
for its durability,
aesthetics, minimal
impact, and affordability.
Local oyster growers
contributed shells to help
stabilize the mound, and
the Tribe planted native
vegetation to cover the
sheet piling. Installation was complete in early         The Wiyot Tribe’s goal is to once again use the
2006. The Tribe will place woody debris                  Island to host the World Renewal Ceremony on
collected from the Island to help stabilize the soil     its original location. The Tribe plans to build
and further conceal the sheet piling.                    dance, gathering, and kitchen areas for use in
                                                         Tribal ceremonies and trails and interpretive
With the success of the Indian Island restoration        areas for the public.
project, the Eureka City Council voted
unanimously in May 2004 to return 60 acres of                  “When I’m here, it doesn’t make
the Island to the Wiyot Tribe. It was a historic                   me sad. This is where our
occasion for the Tribe as well as for the City of                       family came from.
Eureka, which became one of a small number of                   It feels good to work here with
cities in the United States to return a sacred site              family and friends, bringing it
to indigenous people. Currently, the Tribe is                      back. It will happen in my
using volunteers to remove remaining debris                                 lifetime.”
from the Island and has funding in place to:                            — Leona Wilkinson,
                                                                            Wiyot Council Member
♦   Construct a dock.
♦   Clean up contaminated soil.
♦   Install a cap on the shell mound.                    Contact: Jon Mooney,
♦   Restore habitat at the Indian Island rookery,        Environmental Director,
    located on part of the Island still owned by         Wiyot Tribe,
    the City of Eureka.                                  707-733-5055 or
                                                         jon@wiyot.us
                                                                                                       35
     Page left intentionally blank




36
Scope and Methodology                                                      Appendix 1
In December 2005, the EPA Administrator              ♦   Recommendations by EPA and DOI
requested that the EPA Inspector General                 officials.
research innovative Tribal practices, with the       ♦   Variety of Tribal size.
intention of providing examples of successful        ♦   Locations distributed throughout the country.
environmental programs to other Tribes. DOI’s        ♦   Variety of program type or focus of program
Inspector General agreed to participate in the           interest (e.g. solid waste management, air
project to highlight successful natural resource         pollution control, habitat restoration,
programs and practices implemented by Tribes.            recycling, and forestry).
The work was performed in accordance with            ♦   Willingness of Tribes to participate.
Government Auditing Standards, issued by the         ♦   Review of Single Audit Reports.
Comptroller General of the United States. We         ♦   Discussions with EPA and DOI Offices of
did not review management controls because               Investigations.
they were not related to the scope and objective
of our work. We conducted our fieldwork              Each Tribe planned our visits and selected
between January 24, 2006 and November 13,            positive practices in their environmental and
2006 and relied on the Tribes for the accuracy of    natural resource programs. During visits, we
reported statistics. No prior reports by the         discussed natural resource and environmental
Offices of Inspector General for EPA and DOI         practices; interviewed staff; gathered
address the subject matter of this project.          documentary evidence; inspected, observed, and
                                                     photographed operations; and analyzed examples
The first phase of the project was to define a       of positive practices. Tribes highlighted their
successful project and a promising practice. We      success stories according to their individual
defined a successful Tribal project or program as    needs and definitions of success.
a project or program in which positive progress
is made towards the environmental or natural         This report is not intended to be a
resource goals of a Tribe. We defined a              comprehensive list of everything federally
promising practice as a Tribal programmatic          recognized Tribes are doing to address
procedure that we believe provides                   environmental and natural resource challenges.
environmental or natural resource benefit and is     Rather, the purpose of the report is to focus
transferable among Tribes. Also during this          attention on how some Tribes are addressing
phase, the Delaware Nation volunteered to            environmental and natural resource challenges.
provide us with examples of its environmental        The report will provide interested Tribes with
and natural resource programs. We discussed          examples of successful approaches and points of
barriers and potential positive practices with       contact for further discussion and exchange of
EPA and DOI staff and Tribal organization            ideas.
representatives.

The second phase of the project dealt with
selecting other Tribes to visit and observe and
document innovative practices used as part of
environmental and natural resource programs.
We developed the selection process to maximize
the number of successes and their transferability.
We selected the Tribes based on the following
criteria:

                                                                                                    37
